<html>
<title> - CHINA AND HUMAN TRAFFICKING: UPDATES AND ANALYSIS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                      CHINA AND HUMAN TRAFFICKING:

                          UPDATES AND ANALYSIS

=======================================================================



                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            AUGUST 20, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov




                  U.S. GOVERNMENT PRINTING OFFICE
62-288                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Hon. Byron L. Dorgan, a U.S. Senator from 
  North Dakota, Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Brown, Earl, Labor and Employment Law Counsel, China Program 
  Director, Solidarity Center, AFL-CIO...........................     3
Zheng, Tiantian, Professor of Anthropology, Coordinator, Asian/
  Middle Eastern Studies, Program, State University of New York, 
  Cortland.......................................................     5
Wan, Yanhai, Director, Beijing Aizhixing Institute, expert on 
  HIV/AIDS, human rights, and civil society in China.............     7
Keefe, Patrick Radden, Fellow, the Century Foundation and author 
  of ``The Snakehead: An Epic Tale of the Chinatown Underworld 
  and the American Dream''.......................................     9


                     CHINA AND HUMAN TRAFFICKING: 
                          UPDATES AND ANALYSIS

                              ----------                              


                        FRIDAY, AUGUST 20, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 10:08 
a.m., in room 628, Dirksen Senate Office Building, Hon. Byron 
Dorgan, Chairman, presiding.
    Also present: Charlotte Oldham-Moore, Staff Director.

  OPENING STATEMENT OF HON. BYRON DORGAN, A U.S. SENATOR FROM 
 NORTH DAKOTA, CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Chairman Dorgan. Well, thanks to all of you who are here. I 
know it's August, and I have been traveling. I've just returned 
from North Dakota. But since I was here today and we have 
organized a roundtable, I thought I would, as Chairman of the 
Commission, come by and have an opportunity to visit with all 
of you and with the witnesses.
    I thank the witnesses very much, those who have come to 
lead the discussion today on a subject that's very important. 
It's a subject that I have written about in a book and a 
subject that our Commission thinks is very important, and 
that's the issue of human trafficking in China.
    We have had a number of hearings and roundtable discussions 
about developments in China, and the subject today is one on 
which I think there has been progress in China. The Chinese 
Government, particularly at the national level, recognizes 
human trafficking as a problem and has taken recent actions on 
the issue of human trafficking, and many of the results are 
good.
    The national government has been more aggressive in its 
efforts to address it than local governments who seem less 
capable to enforce and to really address at the local level 
this issue of human trafficking.
    Human trafficking has long been a problem and, as I 
indicated, I have written about it. In fact, what I wrote about 
was the issue of forced labor. And let me just respond by 
citing a portion of the book I wrote.
    I wrote about a young woman named Li Chunmei. She was a 
woman who died and she died working; apparently not terribly 
unusual in China in some areas. They actually have a word for 
it. It's gulaosi, which means overwork death and applies to 
young workers who collapse and die after working exceedingly 
long hours day after day after day.
    Li had worked over 2 months, 60 days, without even so much 
as a Sunday off, working 16 hours a day in factories that had 
terrible air quality, 90-degree temperatures; Li died and I 
described the circumstances of her death. This young woman was 
making stuffed animals that would be sent to our country, among 
others.
    She is not an atypical person in China. She left school in 
the third grade, was sent to go feed livestock, and then, at 
age 15, sent to work in toy factories in the city and working 
for 30 cents an hour, 16 hours a day, with no days off, in bad 
working conditions, and then Li died. Just one person.
    The reason I cite that case is to point out that we use 
statistics and aggregate data, but behind all of these 
statistics are individuals, people, and too often children. And 
the issue of human trafficking, in most cases, relates to the 
subject of human trafficking of women and children.
    There is also human trafficking for forced labor, which is 
important, and, what I wrote about deals with both forced labor 
and children. We're very interested in encouraging China to 
continue the progress that they have made and increase 
enforcement and to aggressively go after traffickers.
    So we have put together an opportunity today to hear from 
some very informed and interesting people who will discuss with 
us their evaluation of what is happening and where we are with 
respect to human trafficking in China.
    First, Mr. Earl Brown will talk about the challenges that 
have been proposed by China's legal definition of human 
trafficking, which, by the way, is a narrower definition than 
has been adopted internationally. This is a problem that must 
be addressed.
    Next, Dr. Zheng will discuss China's anti-trafficking 
policy and its impact on migrant sex workers, based on her 
ethnographic research in China's urban underground brothels.
    Then Dr. Wan will discuss the impact of the Chinese 
Government's anti-trafficking campaigns on the work that 
certain nongovernmental organizations [NGOs] are doing among 
communities that are touched by trafficking.
    Finally, Patrick Radden Keefe will address the distinction 
between human smuggling and human trafficking.
    I am going to be here only an hour and then I'm going to 
turn it over to CECC Staff Director Charlotte Oldham-Moore. In 
that time, I want to thank the witnesses very much for your 
willingness to be here; and, to say, also, when the witnesses 
or those who are going to present testimony for discussion 
today, when they are completed with that, we are going to have 
a pretty wide-open discussion with the audience, as well, and 
have a wide-open question-and-answer session.
    So I appreciate very much all those who have now come to be 
a part of this today, and feel free to participate fully in the 
question-and-answer session.
    So, first, we'll hear from Earl Brown, Labor and Employment 
Law Counsel for the American Center for International Labor 
Solidarity, an international worker rights organization and NGO 
affiliated with the U.S. labor movement. He has represented 
trade unions and employees in U.S. labor law and civil rights 
litigation since 1976.
    He has previously served as general counsel to the 
International Brotherhood of Teamsters, Associate General 
Counsel to the United Mine Workers, and a partner in a U.S. 
labor and employment law firm. He has very substantial 
credentials and we very much appreciate Mr. Brown being with 
us.
    Mr. Brown?

 STATEMENT OF EARL BROWN, LABOR AND EMPLOYMENT LAW COUNSEL AND 
       CHINA PROGRAM DIRECTOR, SOLIDARITY CENTER, AFL-CIO

    Mr. Brown. Thank you, Senator.
    I work for a labor and human rights NGO that has offices on 
the ground around the world, working with trade unions, human 
rights and labor rights NGOs. So we see the daily stories from 
victims of trafficking, labor trafficking in the main, from 
around the world, and those stories globally are not different 
from the stories we hear about China.
    I'm glad that the Senator acknowledged the progress that 
China has been making and, in the past three years, China has 
made remarkable progress in erecting--beginning to erect a 
labor law structure and, at least in the trafficking area, 
ratified the treaty, the Convention on Trafficking and the 
protocols, the Convention on Organized Criminality and the 
protocols.
    But I want to go for a moment to the human faces that the 
Senator has mentioned, which is what keeps most of our 
organization working around the world, a lot of time that, for 
a labor organization, is uncompensated.
    That is, first of all, based on Asia, we have an office in 
Thailand and that is a center of labor trafficking and a center 
of trafficking as it impacts China and a demonstration of how 
trafficking is a regional problem and an outgrowth of dual 
labor markets, a formal, legal labor market and an informal, 
illegal or tending to illegality labor market.
    I interviewed, for many hours, a young boy who grew up on a 
pineapple plantation and the one thing he wanted to do is get 
away from pineapples. He never wanted to see one again. So he 
went to the big city and was literally, as we say in English, 
``shanghaied'' by a Chinese gang, held in a home for three 
weeks, put on a vessel, fished without pay under force of a gun 
off the waters of Indonesia. And from there, he and a friend 
jumped off the boat, swam to the coast of Indonesia, mucked 
around in the jungle, came back to Thailand and was 
``shanghaied'' again. That is an amazing story, and this was a 
Hong Kong southern coastal China gang operating in Thailand.
    In another instance, I was in the south of Thailand with a 
migrant worker rights NGO and we were at the border with 
Malaysia, and there were all these women in a bus. And after 
inquiry, we found out they were from North Korea. And their 
story was they had fled North Korea across the river into 
Liaoning Province in China, had transited all over China, down 
to Yunnan, from Yunnan into Burma, from Burma into Thailand, 
and from Thailand, they were now going into Malaysia.
    We couldn't figure out exactly what they were doing. They 
told us they had been promised jobs in electronics factories. 
The chances of them working at jobs in electronic factories are 
low and the chances of them ever getting paid for any kind of 
work they do are very low.
    So these are the stories that, in our view, from our 
offices around the world, are multiplying, as an economic 
crisis takes a hidden toll on workers everywhere, as more 
workers are dropped out of formal legal structure, as more 
employers seek to avoid labor law compliance by resorting to 
semi-legal and illegal labor markets.
    We have a pretty word for some of these semi-legal markets. 
We call them flexible labor markets. But, in fact, they are 
labor markets where wages are not paid according to standard, 
children are allowed to work, hour restrictions are not 
maintained, and labor is cheap because it's illegal.
    To us, as a lawyer, as labor lawyers and worker rights 
advocates, this poses a huge rule of law question, because the 
employers that want to abide by the law--and by the way, most 
citizens of the world encounter the law through either petty 
criminal law or labor law. They don't encounter it through 
copyright law. They don't encounter it through patent law. They 
don't encounter it through commercial contract law.
    They encounter it through labor law, where they're paid 
their wages as due, when due; and, they encounter it when their 
kids get in trouble with speeding or traffic rules or some 
other thing. And that's how they judge the law.
    If that law is not enforced and if employers who want to 
obey that law have to compete with employers who don't obey the 
law, we are eroding the rule of law generally at a level I 
don't think is widely appreciated, and this impunity and 
erosion of the rule of law that attends the semi-legal and 
illegal labor market is growing in the world. It's growing in 
the region.
    I don't think any government is up to speed on it; that the 
traffickers, the brokers, the freight-forwarders of human 
cargo, the drivers, the receiving agents, the banks, the 
escorts--all these people are so adaptable that it's very hard 
for staid, understaffed, under-resourced labor bureaucracies to 
keep up. It's hard for prosecutors to keep up, even the most 
nimble prosecutors.
    That's why we, in our work around the world, focus on 
strengthening labor institutions on the ground, as well as 
insisting on rigorous prosecution of these crimes.
    Now, the Senator pointed to the progress in Chinese law and 
he pointed, also, to a gap. China, again, in December 2009, I 
believe, ratified and acceded to the Palermo Protocol on 
Trafficking. That is a step forward. But the domestic Chinese 
law--it remains for China to domesticate that law--only talks 
about women and children and has a particular emphasis on sex 
trafficking.
    The International Labour Organization estimates that for 
every one victim of sex trafficking, there are nine victims of 
labor trafficking. Now, at the Solidarity Center, we do not 
view sex trafficking, bride trafficking, and labor trafficking 
as competing or 
conflicting, and there's a remarkably rich, bipartisan, 
interfaith, cross-ideological consensus on all trafficking, and 
they are not competing. As a matter of fact, they are mutually 
reinforcing illegalities, because people who traffic for labor 
the young women, the most vulnerable, the children, are often 
sexually abused. People who are trafficked for sex are often 
slotted into work.
    It's the same banks. It's the same drivers. It's the same 
agents. It's the same ships. It's the same escorts in many 
cases.
    So we're not for an artificial divorce, but we would 
certainly urge China and the United States--because this is a 
problem for all countries and we need a new discourse. 
Trafficking survives in the United States, where, in our 
opinion, a lot of Chinese workers are trafficked because of 
labor illegality in the United States. That's what fuels it. So 
we can't point to one system as perfect and one as imperfect. 
It's a mutual problem. As I say, it's two countries, one 
problem.
    With that, I will leave you and thank you for this 
opportunity.
    Chairman Dorgan. Mr. Brown, thank you very much. We 
appreciate your perspective.
    Next, we'll hear from Dr. Zheng. Dr. Zheng is a Professor 
of Anthropology at the State University of New York. She 
received her Ph.D. in anthropology at Yale University in 2003. 
She is the author of four books on sex, gender migration, HIV/
AIDS, and the state. Her works include ``Red Lights: The Lives 
of Sex Workers in Post-Socialist China,'' 2009; ``Ethnographies 
of Prostitution in Contemporary China: Gender Relations, HIV/
AIDS and Nationalism,'' in 2009; and, ``HIV/AIDS Through an 
Anthropological Lens,'' in 2009. She also has another book just 
released, ``Sex Trafficking, Human Rights and Social Justice.''
    Dr. Zheng, thank you very much for being with us.

  STATEMENT OF TIANTIAN ZHENG, PROFESSOR OF ANTHROPOLOGY AND 
  COORDINATOR OF ASIAN/MIDDLE EASTERN STUDIES PROGRAM, STATE 
                UNIVERSITY OF NEW YORK, CORTLAND

    Ms. Zheng. Thank you. In China, beginning in 1989, the 
state has launched periodic nationwide anti-trafficking and 
anti-prostitution campaigns, known as crackdowns, to end 
trafficking in the sex trade.
    During the crackdowns, the Public Security Bureau employs a 
complex system of raids to attack the underground brothels, to 
locate undocumented trafficked sex workers. These campaigns are 
predicated upon the belief that prostitution is a form of 
violence against women and a woman will not voluntarily choose 
a profession that violates her own human rights.
    By conflating and confusing trafficking and prosecution, 
stories of the rescue of suffered women highlight women as 
naive, passive, and innocent. Due to the failure in a dominant 
trafficking discourse, this is not only in China, but also in 
the whole world, in the international discourse, to make 
distinctions between voluntary migrant sex workers and forced 
sex workers, anti-trafficking strategies focus on raid and 
rescue.
    By declaring that a woman who engages in prostitution is a 
victim who requires help to escape, anti-trafficking campaigns 
enable law enforcement officials to exercise force to raid 
brothels, detain, rehabilitate, and deport women and children 
detected and identified as illegal migrant sex workers.
    Usually, when a woman is rescued from the sex trade and put 
into police custody, she is subject to possible sexual assault 
by the police, deportation to her hometown, and forced 
relocation into more dangerous working areas.
    In my own research on migrant sex workers in China, police 
raids, crackdowns, and raid and rescue have pushed sex work 
underground and made it more dangerous. They exacerbate the 
dangers, violence, exploitation, and abuse sex workers 
encounter, including discrimination, continued police 
harassment, and physical violence by local gangsters without 
any legal redress.
    One cannot deny the fact that some individuals are forced 
to work as sex workers against their will. One also cannot deny 
the fact that sex work has its own share of occupational 
hazards. However, an empirical research on sex workers 
throughout the world has revealed that there is a broad 
spectrum of work experience and that the vast majority engage 
in sex work as a result of poverty and a lack of viable 
alternatives rather than trafficking.
    In my own three-year ethnographic research on migrant sex 
workers in China, these women actively seek sex work not only 
in the city as undocumented migrant sex workers, but also 
outside of China, as a means of earning money that it will take 
them nearly 10 times longer to make if they stayed in China.
    They express that it is their dream to migrate to other 
countries to conduct sex work. From my field work, I know at 
least a half a dozen women who had worked as sex workers in 
other countries, such as Japan, Singapore, Hong Kong, and South 
Korea, and then return to China to keep working as sex workers.
    Each of these trafficked sex workers actively made a 
decision to seek out traffickers to move for a better living 
and a new livelihood. None of them could meet the criteria 
established for legitimate 
immigration; that is to say, the point system, family 
reunification system, refugee determination system, or the 
business and entrepreneur recruitment programs.
    Each of them turned in 20,000 RMB, the money borrowed from 
relatives or friends to whom they paid back over time. Each of 
them also passed an interview before being permitted to go 
through the visa process.
    After one year of sex work abroad, they return to China. 
They express that it is their ambition to return to those 
countries and continue working as sex workers.
    These women became role models for many other sex workers. 
Their stories of fast money, even though tempered by 
descriptions of poor living conditions and exhausting working 
schedules, were a major impetus fanning the enthusiasm of other 
sex workers to participate in the global sex industry.
    Indeed, for these women, many of whom had already tasted 
the bitterness of factory work or labor as domestic maids, the 
risks and hardships reported by returning sex workers were but 
minor concerns compared to the possible payoffs.
    These women perceive the traffickers as the only people who 
could help them cross a border and work abroad. To them, the 
source of their exploitation is not the traffickers, but the 
restrictions of their mobility and their illegal status.
    Unlike the portrayal of them as passive victims of 
trafficking, these women exercise their agency to seek out 
people to help migrate and conduct sex work. To them, 
deportation by the state and immigration officials constitutes 
a bigger threat to their free movement and a new livelihood.
    I argue that exclusive focus on raid and rescue not only 
thwarts group organization and health education, such as HIV/
AIDS, but also strips away voluntary sex workers' livelihood 
strategies. By treating sex workers as victims, police raids, 
crackdowns, and rescue strategies force the removal of 
voluntary workers who may potentially assist true victims.
    I recommend a framework that will ameliorate a partnership 
or alliance between migrant sex work communities and law 
enforcement to access the expertise of the sex workers' 
communities to help prevent forced labor and identify 
trafficked persons.
    Thank you.
    Chairman Dorgan. Dr. Zheng, thank you very much.
    Next, we'll hear from Dr. Wan Yanhai. He received a medical 
degree from Shanghai Medical University School of Public 
Health. Upon graduation, he worked at China's National Health 
Education Institute from 1988 to 1994.
    He then served on the staff of Beijing Modern Management 
College from 1994 to 2002. In 1994, Dr. Wan is the founder and 
director of the Aizhixing Beijing Institute, which works toward 
the prevention of HIV/AIDS transmission through community 
education and outreach.
    Dr. Wan has been with us previously. We very much 
appreciate the work he has done and appreciate him coming today 
and for his presentation.
    Dr. Wan?

STATEMENT OF WAN YANHAI, BEIJING AIZHIXING INSTITUTE AND EXPERT 
     ON HIV/AIDS, HUMAN RIGHTS, AND CIVIL SOCIETY IN CHINA

    Dr. Wan. Thank you for inviting me to speak here.
    Our organization is actually an AIDS organization and we 
work mostly with vulnerable populations, like drug users, sex 
workers, gay and lesbian communities, ethnic minorities, 
migrant workers, people living with AIDS.
    We are not an organization working specifically on human 
trafficking, but we have a chance to observe human trafficking 
issues in different migrant populations. So today I will talk 
about some cases.
    First, I will talk about the drug user communities in 
Yunnan Province. We are now working with several drug user 
organizations in Yunnan, in the China-Vietnam border areas.
    So for drug users, women drug users tend to become sex 
workers. Because both drug use and being a sex worker are 
illegal, they go underground. And because both drug use and 
prostitution are illegal, most people tend to be involved with 
criminal gangs or are protected by criminal gangs. So the women 
drug users might be sold by a criminal gang or be sold by the 
client.
    Also, drug users, their family members might be involved in 
human trafficking. For example, in a family, if the son was 
using drugs, the mother eventually, because of the economic 
burden, would become involved in human trafficking. So this is 
a case relating to drug use.
    Also, in China, in the border region, China-Burma border, 
China-Vietnam border areas, a lot of girls cross the border 
into China.
    The second case relates to ethnic minorities, specifically 
to Uyghur communities. In China, several ethnic communities are 
really affected by drug use and the Uyghur ethnic group is one 
such group.
    In other cities, in many different cities, like Beijing, 
Guangzhou, Shanghai, there are many Uyghur migrants. On the 
streets, there are many homeless children, Uyghur children, and 
they were involved in petty crimes, mostly like stealing from 
people's pockets, and sometimes they get involved in selling 
drugs, and some of them are using drugs themselves.
    In relation to trafficking, most trafficked teenagers are 
kidnapped by criminals from their hometown and are controlled 
by criminals in urban cities to serve the criminals on the 
street.
    So when they were detained by police, because of culture or 
language issues, they know nothing. Those children, they know 
nothing. They don't even know who their families are, or where 
their homes are. So eventually, the police cannot do anything 
and just release them.
    So those children were totally controlled by the criminals.
    So this year, our organization worked on some of these 
cases. One such case involved a drug user who was sick with 
HIV/AIDS and also tuberculosis. He was really sick. He was 
kidnapped from his hometown.
    The next group is the ethnic migrant workers, for example, 
in Yunnan. There are many migrant workers. Because of culture 
and language difficulties, they might be easily manipulated by 
criminals to send to--as kind of labor trafficking issues.
    They were sent to some underground, black factories, and 
worked almost as slaves in these factories in cities.
    The next case involves female sex workers. Two years ago, 
in Beijing, we had a kind of drop-in center for female sex 
workers in Beijing and we had a team to work among sex workers 
in Beijing.
    Two years ago, in our drop-in center, there was a woman. 
She was sold from someone in Burma to someone in Yunnan and 
then sold again to someone in Guangzhou. Then she moved to 
Beijing. She has no official personal documents. So if she got 
sick, she couldn't receive government medical care.
    In Beijing, among female sex workers, some of them 
manipulated by the criminals in some regions to find a job, to 
set up a family, these types of reasons, and then were 
controlled and some of them were forced to be sex workers, to 
be forced as a prostitute, and some might be gradually forced 
to be sex workers.
    The next case involves male sex workers. In China, there is 
a growing, emerging, larger gay community. So in urban cities, 
there are many male sex worker brothels. For example, some 
managers rent an apartment or rent some rooms in hotels, and 
some managers come to some provinces where they could find a 
strong young man, and those young boys might be manipulated and 
then sent to the city.
    The managers tend to control the environment and control 
the hotel and the money. So some boys are pretty young and they 
might be--so most of them are voluntary, but some are in a 
controlled environment. And the managers exchange sex workers a 
lot.
    For people who become sick, they lack adequate medical 
care. For organizations, from the civil society perspective, we 
understand we could probably work with sex worker communities 
or drug user communities or the ethnic communities to handle 
the issues, but the general environment is not supportive.
    So government tends to crack down on the general 
environment. That creates difficulties for us to work on 
trafficking issues. If we raise trafficking issues, the 
government might crack down on the general sexual environment, 
and that makes it totally impossible for us to work.
    So from our perspective, if government could legalize some 
adult voluntary prostitution, it might create an environment 
which enables us to work on child prostitution or human 
trafficking issues.
    Thank you.
    Chairman Dorgan. Thank you very much.
    Finally, we will hear from Patrick Radden Keefe. He has 
been a fellow at the Century Foundation, and the author of a 
book, ``The Snakehead: An Epic Tale of the Chinatown Underworld 
and the American Dream.''
    He holds degrees from Columbia, Cambridge, and the London 
School of Economics, and Yale Law School, and his writings have 
appeared extensively in major publications.
    He is currently on leave from Century, serving as a policy 
advisor in the Office of the Secretary of Defense, where he 
focuses on non-state cross-border security issues.
    Mr. Keefe, thank you for being with us today.

    STATEMENT OF PATRICK RADDEN KEEFE, FELLOW, THE CENTURY 
FOUNDATION, AND AUTHOR OF ``THE SNAKEHEAD: AN EPIC TALE OF THE 
         CHINATOWN UNDERWORLD AND THE AMERICAN DREAM''

    Mr. Keefe. Thank you. Good morning. I'd like to start by 
thanking the Senator and the Commission for having me. It's a 
privilege to be here. And I should also go into the standard 
disclaimer that I recently joined the Department of Defense, 
but anything I say here is my own view, doesn't stand for the 
Department in any way, and, in fact, is based on work that I 
did before arriving there.
    I want to approach this from a slightly different angle and 
talk about two different concepts that are distinct in some 
ways, but also sort of opposite ends of a continuum--human 
trafficking, on the one hand, and human smuggling on the other, 
and particularly the issue of free will.
    I was so glad to hear Dr. Zheng talk about sex workers and 
the issue of free will and the idea that there are these 
misconceptions that can sometimes cloud our analysis of these 
issues; where you can find somebody who is in a situation which 
is fundamentally exploitative, a situation that, in some ways, 
we would think an individual wouldn't want to be in, but is 
also in that situation out of free will; actually, in some 
instances, chose that situation; and, the very tricky task for 
delineating when something that starts out as free will becomes 
a more coercive situation.
    The person that I'm going to tell you about is not actually 
a victim of trafficking, but somebody who was a human smuggler; 
what, in China, is known as a ``snakehead.'' This was a woman 
named Sister Ping, who I wrote a long article about in the New 
Yorker magazine, which I then developed into a book.
    She was from southeast China, came to the United States in 
the early 1980s, and, for about two decades, was one of the 
most prolific human smugglers on the planet. And what she would 
do is bring people from her region of southeast China illegally 
via an extraordinarily sophisticated series of routes into the 
United States, where they would tend to ask for asylum, but as 
often as not, join the underground economy and work as 
undocumented workers in various industries here in the United 
States.
    There is an interesting misconception about human 
smuggling, as it is practiced by the snakeheads. And I think 
part of the problem here is that often you'll hear human 
smuggling and human trafficking used interchangeably.
    It's kind of funny for me. I was at great pains to make the 
distinction in my book and half of the reviews of my book 
referred to it as a book about human trafficking. I thought, 
``How did that work out exactly? '' But I do think we want to 
be clear about this.
    The misconception that is fairly prevalent in the United 
States is that what happens is that people who want to leave 
China approach a snakehead, pay a small down payment on a much 
larger fee. And the fees would astonish you. In the 1980s, it 
was about $18,000 for passage; by the 1990s, it was about 
$35,000; and, today, the industry is still going and it's about 
$70,000 to get illegally from China to the United States.
    Of course, people aren't able to finance that right away. 
So what they do is they pay a small down payment to the 
snakehead. If they make it here--and it's a big ``if''--because 
people are flying by numerous airplanes and airports where they 
could get stopped if they're on phony documents. Often, they're 
in the hulls of ships. The ships can sink. They can be 
interdicted.
    But if they make it to the United States, they owe the 
balance of that fee. And the misconception that you'll still 
hear today is that the migrants will get to the United States 
and then have to work as indentured servants for years, slowly 
paying off that fee.
    But when I started my research and actually talked to 
people who had been involved in the snakehead business, they 
said, ``Think about it from our point of view. It doesn't make 
any sense. I don't want to be chasing after dozens or hundreds 
of debtors in various stages of repayment.''
    So instead, what happens is people get over here and 
they're held for a 72-hour grace period, often at gunpoint, and 
given a telephone and they're told, ``Call anyone you know. 
Beg, borrow, or steal, but I need the balance of the fee in 72 
hours.''
    What happens is people then make phone calls and they 
borrow from people in China, from people in the United States, 
anyone they know, $500 here, $2,000 there. They coddle together 
the fee. They pay off the snakehead, and then they're released.
    This is an interesting situation, because on the one hand, 
the voyage over here, the trip over here is very perilous. It's 
just fraught with risk and exploitation, and I'll give you one 
example. Sister Ping's most famous smuggling ship was a ship 
many of you I'm sure have heard of, the Golden Venture, which 
ran aground off of Queens, NY in 1993. And this is an area I 
get into a lot in the book.
    When I started my research, I knew it was a ship which had 
a hull in which the passengers were. There were 300 passengers. 
The hold of the ship was about half of this room, if you can 
imagine that, with a much lower ceiling.
    I knew it was a long voyage and I was trying to figure 
out--I'm not a sailor. I had no real benchmark for how long 
they had spent at sea and what it meant.
    I thought, ``Well, what are some famous voyages I can 
measure this by? '' In 1620, the pilgrims came on the Mayflower 
and it took them 60 days on that ship. And in 1993, the Golden 
Venture was at sea for 120 days before it arrived here.
    The circumstances were dire. Ten people died actually when 
the ship ran aground and they were trying to get ashore. And 
these types of stories are not unusual. They then get here, if 
they make it here, for the pleasure of having somebody point a 
gun in their face and tell them, ``Pay the balance of my fee.''
    The difficult thing, though, is that when prosecutors over 
the years have tried to--have, say, busted up a safe house and 
found that gunpoint situation, that looks an awful lot like 
hostage-taking. So you try and bring it as a hostage-taking 
case.
    But as often as not, they had trouble finding witnesses who 
would cooperate with them, because the passengers of the 
snakeheads would say, ``Well, it wasn't really hostage-taking. 
This was a contract. I knew going in that I was risking my 
life. I knew I would owe this enormous amount of money when I 
arrived. I knew that they might hold me at gunpoint when I got 
there. But if I welch on my debt to the snakehead, then the 
snakehead will find that it's much more expensive to be in 
business, may go out of business, and that's a net loss for 
everyone.''
    So there's a very pragmatic way in which, for many of the 
people who undertake these journeys, this is something that's 
clearly legal and unquestionably exploitative in that they're 
paying much more than the actual costs of getting them here, 
and very risky and hazardous, but it's something that they go 
into with their eyes open.
    To give you an example that illustrates that fairly well, I 
think----
    Chairman Dorgan. You meant clearly illegal, didn't you?
    Mr. Keefe. Illegal. I'm sorry. Did I say clearly legal? 
Friday morning. There's little distinctions that matter so 
much.
    To give you an example of how this played out in reality, 
when Sister Ping was eventually apprehended and tried in the 
southern district of New York in 2005, this was when I began 
looking into the story, part of what fascinated me was that she 
was one of the most wanted Asian organized crime figures at the 
FBI. It was a big landmark case, and yet, in Chinatown, in New 
York, she was considered a hero.
    To this day, you can go to the eastern part of Chinatown, 
where the Fujianese, people from her region of southeast China, 
are from, and she's venerated. I went to China, to Fujian 
Province, and it was the same thing. People regard her not as 
an exploitative figure, but people often throw around the term 
Robin Hood to describe her. Harriet Tubman might have been a 
better analog in that case. And she got very wealthy doing 
this.
    Nobody knows, and I think you're in hazardous territory 
when you're estimating about numbers in these underground 
economies, but the FBI estimates that she made about $40 
million doing this over the years. And as my book editor joked, 
that was all tax-free, so that's $80 million to you and me.
    This issue, I think, is one that we should be thinking 
about more than we are, because that circumstance, the human 
smuggling circumstance is something that happens not just in 
the Chinese context, but in the Mexican context. It happens 
throughout Asia, with destinations in Australia, Europe, Japan.
    There is a global migrant worker population which is 
availing itself of these services to move from place A to place 
B, and I think that there's a lot of confusion at the policy 
level in government, at the law enforcement level, even in the 
United Nations, a sort of international organization level, in 
figuring out, ``Are these people criminals, these people who 
are doing this with free will and engaging in these types of 
transactions, or are they victims? At what point do they go 
from being a criminal to being a victim, or could they be both? 
''
    I'll give you two last little points and then wrap up. The 
first is that in some ways, this might be an academic question 
at this stage, at least with regard to China, in that there 
were huge numbers of people coming from southeast China to the 
United States from around the mid-1980s to around 10 years ago. 
Nobody knows, the estimates are all over the map, but you would 
often hear 50,000 to 100,000 a year coming via these services, 
and that's coming from one place in China, Fujian Province, 
which is a fairly small sliver of coast; it's sort of an 
anomaly. The vast majority of the Chinese who have come via 
irregular migration to the United States in the last 30 years 
have come from this one tiny place. It would be like if you 
went to China and all the Americans you met were from 
Providence, RI.
    But the numbers started tailing off, because the economy in 
China picked up, and in southeast China, in particular, picked 
up to a point where there were factory jobs, plentiful jobs in 
the manufacturing sector.
    Then since the advent of the economic crisis, that's 
changed and suddenly a lot of those factory jobs have 
disappeared. And within China, we've seen a big internal 
migration away from the east coast, with many people leaving, 
actually going back to the villages they left behind.
    Internationally, it's funny, I had been predicting, ``Well, 
if people are willing to go back into wherever it was that they 
left in the interior, they may be willing to venture abroad, 
because this is a very kind of integrated, international 
system.'' And sure enough, a few months ago, we started seeing 
these stories coming out that border officials in Nogales were 
perplexed because there was suddenly a tenfold spike in the 
number of Chinese they were apprehending coming across through 
Mexico.
    So I think that this remains a significant issue. And I'll 
leave you with one last trend where I think it's especially 
troubling, and this gets to something that the Senator 
mentioned earlier, which is children and the matter of children 
and the particularly, I think, devilish question of how you 
construe free will for a child.
    I'm in touch with a number of pro bono attorneys who work 
in New York City with recently arrived Fujianese who have been 
smuggled in and one trend that they've noticed is that just in 
the last few years, they've started seeing a large number of 
kids who are sent by their families. Their families reach out 
to a snakehead, pay the fee, send the kid.
    The kid doesn't necessarily want to come, and these are 
children who are 13, 14, 15 years old. The understanding is 
that they're going to get here and work--generally in the back 
of a restaurant--and send money home.
    What some of these attorneys are trying to do is to say, 
``Look, this is actually--it might seem like a smuggling 
situation.'' The network is a smuggling network. You're paying 
a snakehead, who is a smuggler. But this is really a 
trafficking situation, because in what realistic sense can a 
14-year-old child make that kind of determination and say ``I 
want to go and risk my life to get over there and then spend my 
life doing that in the United States when I get there.''
    So I hope that that provides some stuff we can discuss, and 
thank you very much again for having me.
    Chairman Dorgan. Mr. Keefe, thank you very much for being 
here today and sharing those thoughts. You've actually raised 
so many more questions than you've answered.
    You have raised really interesting questions, as have some 
other witnesses, on the subject of smuggling vis-a-vis 
trafficking, vis-a-vis forced labor. And I was looking at 
something that I had written previously.
    The International Labor Union reported in 2005 that at 
least 12.3 million people work as slaves or in other forms of 
forced labor.
    Kevin Bales, an anti-slavery activist and author of the 
book ``Disposable People,'' says that in 1850, a slave would 
have cost the equivalent of $40,000 in today's dollars. Today, 
a slave working the coffee or cocoa plantations in the Ivory 
Coast, some as young as nine years old, will set you back as 
little as $30 in today's dollars, because they're considered 
disposable.
    Mr. Brown made the point that forced labor is a problem 
much larger, in terms of the number of people, than trafficking 
for sexual exploitation.
    The four panelists who have spoken to us today raise 
important questions about what constitutes forced labor, what 
is free will, what is smuggling, and what is trafficking.
    So thank you for making a really interesting set of 
presentations. What I'd like to do is call on Abbey Story for 
the first question. We have a microphone here.
    Abbey Story works with our Commission. She's the researcher 
on human trafficking. Let me ask Abbey to go ahead and ask the 
first question. And then what we'd like to do is open this up 
and any of you can come to the microphone and we'll begin a 
robust discussion.
    As I indicated, I will have to leave at the end of the 
first hour and Ms. Charlotte Oldham-Moore will then convene.
    Ms. Story? Thank you very much.
    Ms. Story. Thank you, Senator Dorgan. And I totally agree, 
I think you've all raised more questions than probably you 
answered today, but that will make for a very vibrant 
discussion.
    So I have questions for all of you, but I'm just going to 
pick one for now. And if we have extra time later, maybe I'll 
come back up.
    I just wanted to start with Patrick, if that's okay. You 
had mentioned the desperate circumstances that people are under 
in China and the risks that they take, as well as the 
incredible fees that they pay. Clearly, they're wanting to get 
out for many reasons, but we just focused on the economic 
reasons. Could you expound on what other factors you have 
noticed in your observations and your research that are pushing 
people to take such leaps of faith and risk to come out of 
China? Have you noticed any other factors driving this?
    Mr. Keefe. Yes. This gets, very quickly, into very tricky 
terrain in that people flee and often pay snakeheads to flee 
because they're experiencing persecution of one sort or 
another.
    There are instances of religious persecution, Christians, 
members of Falun Gong. There are many instances of people 
having run afoul of the one-child policy, wanted to have 
multiple children, and the policy is enforced selectively and 
it really gets down not just to sort of province by province, 
but often village by village in terms of the local cadres. And 
so you have those instances, as well.
    What makes this exceedingly difficult to parse is that even 
the economic migrants ask for asylum when they get here, by and 
large, and, generally, they are smart enough to know what the 
various criteria they should be touting are. And so you'll have 
a situation in which, say, in any group of 10 potential asylees 
who come from China, say, 10 of them are coming and they're 
saying, ``I'm fleeing the one-child policy'' and they're all 
telling stories that sound remarkably similar.
    The excruciating aspect of this is that probably, and I'm 
making these numbers up, but if you had to generalize, nine of 
them are telling those stories because they're economic 
migrants and I think this is a good shot at getting asylum, and 
one is telling the story because it's true.
    This makes the task of immigration judges and asylum 
officers incredibly difficult, particularly because they don't 
have a lot of resources and they're not in a great position to 
do fact-finding in terms of the situation on the ground.
    So the brief answer to your question would be I think that 
there are a range of forms of persecution that are driving 
people to leave, as well, but parsing out exactly how prevalent 
those cases are is complicated by the fact that with the 
encouragement of the snakeheads, economic migrants will often 
come and, in their asylum process, drape themselves in the 
mantle of these types of claims.
    Chairman Dorgan. Can I just ask? Those children who are 
born outside of the one-child policy, is there, in China, more 
of an incentive to coerce parents to sell their children at 
that point?
    Do we see some of that? Has China's one-child policy been 
something that has incentivized the trafficking in children?
    Mr. Keefe. I personally don't have any information on that 
and wouldn't be the one to answer that, but there very well may 
be others in this room who could.
    Chairman Dorgan. All right. Open for questions. Who has 
some observations or questions? Yes? Feel free to come to the 
microphone.
    Audience Participant. Thank you, everyone. I have a 
question for all panelists. Basically, we talk about human 
trafficking or human smuggling, whatever you call it, it's 
basically like economic criminal acts. But as we know, for some 
certain areas, like Fujian, this practice is particularly 
evident for sex trafficking.
    So I was wondering if there are some social or political--
not really political--social or cultural practices that's 
really encouraging human trafficking and smuggling. Thank you.
    Chairman Dorgan. Mr. Brown, do you want to start on that?
    Mr. Brown. Before I answer that, could I say that in the 
empirical world, in the real world, and I'm portraying a bias 
here for facts, often, smuggling and trafficking get 
intermingled. So they are distinct legal categories, but you 
could imagine an indictment of someone for trafficking and 
smuggling.
    The cultural and social fuel, to my mind, of trafficking in 
Southeast Asia and East Asia, which is, one, becoming one 
region in terms of an illegal labor market, is fueled by the 
subordination of women, the threat to societies, all of them, 
the legal status, the marginal legal status of internal 
migrants, and the marginal social status of internal migrants.
    Particularly, China has made advances in addressing the 
hukou system, which operates to marginalize rural migrants, but 
it, as we in our own history know from reconstruction and 
slavery, it's one thing to abolish an inferior legal status as 
a matter of law. It's a far different thing to eradicate social 
aspects of discrimination or what Justice Douglas used to call 
a badge of slavery that survives the slavery itself.
    So in our own system, we have complimentary social aspects 
that fuel the receipt and use of illegal labor in the United 
States, again, the subordination of women in this society 
remaining.
    The inattention to labor law enforcement by governments and 
all of that works--those are the cultural and legal and social 
factors I would point to. But you can't have illegality in one 
country and not in another with trafficking.
    Chairman Dorgan. Dr. Zheng?
    Ms. Zheng. I would agree with you in all those respects. I 
just want to point out one social-cultural factor which I think 
comprises the historic continuity of filial piety. I think in 
East Asia, and also in Southeast Asia, there has been this 
tradition, historic tradition that if you're a daughter, then 
you need to sacrifice yourself to support your parents.
    Jonathan Spence's book on the history of modern China has 
reported that in the past, whenever there were dire situations, 
for instance, some famines and so on, parents would be likely 
to sell their daughters for prostitution to support the 
parents.
    In Southeast Asia, such as in Thailand, there has been 
research done that shows that daughters are encouraged by their 
parents to go into the sex trade, because it is believed that 
if the daughters do this for the parents, to support the 
parents, then their good deeds will trigger a good karma, 
meaning that in the next life, they will be born in a more 
wealthy family and lead a happier life.
    So I think that's one of the reasons why we've seen a lot 
of these women putting themselves in danger to support their 
male siblings to go to school and also support the parents.
    Chairman Dorgan. Rather than go down, in each case, to 
every presenter----
    Audience Participant. Can I finish my question? Basically, 
I'm trying to say, for Southeast Asia or Fujian, in the 15th 
century, we began to see Fujianese and Cantonese begin to 
migrate to Southeast Asia. So the trend is to go west, go west 
to the ocean.
    So in the 17th century, 18th century, you began to have 
Fujian and others across Southeast Asia, and now you begin to 
see human trafficking into North America. So this is one case 
of historical culture or sort of practice.The other example or 
case I want to say is----
    Ms. Oldham-Moore. Sir, questions please, not statements. 
Okay?
    Audience Participant. Okay. So basically, there is some 
historical cultural practice to encourage human trafficking.
    Chairman Dorgan. All right. Thank you very much. We'll just 
try to get as many questions out there and have a discussion of 
all of the questions.
    You, sir?
    Mr. Downey. My name is Kiel Downey, and my question is 
primarily directed for Dr. Wan, although I'd welcome any of the 
speakers to interject their thoughts.
    Dr. Wan, you said in your statement that the environment 
for civil society organizations in dealing with problems such 
as human trafficking, forced labor, drug use or the illegal sex 
trade was not supportive. I think those were your words.
    But I also remember that in Senator Dorgan's opening 
remarks, he mentioned that the government recognizes all of 
these things as problems in China. So I'm wondering: Why would 
the government not welcome the help of civil society 
organizations in dealing with these kinds of problems? What 
would be the reason for the lack of support?
    Thank you.
    Dr. Wan. From our perspective, we mostly work on health 
issues and we manage community outreach with sex workers and 
managers. We keep good relations with the managers. We have 
difficulties explaining human trafficking in the sex industry, 
because 
otherwise we have a conflict. The managers may not welcome our 
work.
    Another issue is that from a health perspective, there is a 
strong reason to push the government to not crack down against 
sex workers, enabling health workers, NGOs, to work to help the 
sex workers.
    But if we were to work on human trafficking issues or 
trafficking issues, where arrests--also, like child prosecution 
arrests, the government will definitely launch a crackdown. So 
that is also a challenging issue.
    From our perspective, we believe that to handle the 
criminal activities, the trafficking issues, the child 
prostitution, government force, police force is not enough. So 
we need to manage a working relation among the networks, among 
people like managers, sex workers, clients, all types of 
people.
    So we need help from civil society. But in the current 
environment, it is typical for an organization like ours to 
work on trafficking issues, but we could observe all types of 
trafficking issues ourselves.
    The government crackdown on our organization is mostly 
related to our funding issues and also our involvement in human 
rights issues involving those marginalized populations.
    Chairman Dorgan. Yes, sir?
    Mr. Agranovich. My name is David Agranovich. I'm 
representing the Polaris Project. So I'll admit my knowledge is 
mainly based in domestic trafficking. So my question is mostly 
for Mr. Brown, but I'd encourage anyone else who might have 
input to weigh in.
    I was hoping you would speak a bit to the institutional 
mentality in China toward labor in general, especially factory 
labor, where you see a lot of that exploitation, and also the 
actions that can be taken that the Chinese Government responds 
to the most; for instance, broadening the trafficking laws or 
taking a stronger stance on labor issues. Thank you.
    Mr. Brown. Well, I don't know if I can speak to a Chinese 
mentality or the government, and I'm not sure those--they're 
very complicated.
    I do know that there are huge forces in China recently 
emergent that view creating a rule of law situation as 
important and see labor law looked at broadly as a key element 
of the rule of law, and that is quite a work in progress.
    I also know that it is very difficult to keep apace in a 
legal sense, with a hyper-entrepreneurial system of 
trafficking. Mr. Keefe described, I think, very vividly how 
nimble these traffickers are and what the profit levels are on 
labor trafficking, and I imagine they are actually the same in 
sex trafficking.
    The level of adaptability of these snakeheads and the 
agents and the escorts and the occasional people that just get 
a cell phone call and pick someone up from point A and take 
them to point B is astounding, and I think that's the inherent 
problem. And it's also a problem because Asia, where this is 
one labor market, you have all these jurisdictions.
    So if the criminals are operating in Thailand, the victims 
are in China and the United States. How does any one person, 
any one local prosecutor ever get a wrap around that? And I 
think there is a real puzzlement not only in China, but in the 
United States, on how to deal with that, but there is a broad 
consensus that it's a growing problem and that it needs to be 
addressed with vigorous prosecution. That's why I say two 
countries, one problem, or three countries, one problem.
    Ms. Oldham-Moore  [presiding]. Thank you, Mr. Brown.
    Please go ahead.
    Mr. Lee. I'm Anka Lee, with the Commission. Actually, this 
question is for Mr. Brown. In the past couple months, we've 
seen stories and research out about the issue of child labor in 
China, and I think Senator Dorgan alluded to this in his 
opening statement.
    But then you also talked about the issue with enforcement 
problems in China and we all know that there are some pretty 
good laws on the books that protect workers' rights. And we 
talked about this before, Earl, but how do you think the 
Chinese Government can--what can they do to make inspections of 
facilities more rigorous, in a way, to make inspections of 
these facilities more rigorous? And what role do you think NGOs 
and even the U.S. Government can play to facilitate this 
process?
    Mr. Brown. Well, I think--and I just want to take two 
seconds here to preach a little bit and I hope I'll be 
forgiven. But I think the problem of trafficking, as I say, 
depends on complimentary, parallel legal gaps in the sending 
country and in the receiving country.
    So it's very hard to take a superior attitude and to 
instruct people about what goals they should attain. And it's 
such a common problem, but I think that because the trafficking 
and the labor market is so dynamic--Mr. Keefe, again, pointed 
to the down-tic in trafficking and smuggling--to maintain the 
distinction--as China factory work burgeoned and then with the 
economic downturn, again, the up-tic in labor migration into 
the United States and Europe from China.
    So it's an extremely responsive market and no bureaucracy, 
no prosecutor, no labor ministry, no inspectorate--you can't 
begin to hire enough. I mean, we do have a job crisis and I 
would urge that the 30,000 unemployed lawyers in Manhattan be 
put to work on prosecutions and we increase our labor 
inspectorate.
    But even if you absorbed everybody, you would never be 
nimble enough, and that's why you need grassroots NGOs, you 
need informal labor institutions, you need trade unions, you 
need all those labor institutions, and I'm sure this is true of 
the advocacy institutions on sex work, as well.
    Ms. Oldham-Moore. Thank you.
    Mr. Heatley. Jesse Heatley. I have a question for Dr. 
Zheng.
    Dr. Zheng, this year, fairly recently, the minister of 
public security announced a seven-month strike-hard campaign to 
focus on a number of crimes, including human trafficking.
    Also, late last year and this year, the Ministry of Public 
Security has made those involved in sex work and prostitution a 
major focus of anti-crime campaigns.
    In your opinion, regarding the policy rhetoric, have there 
been any changes to consider the rights of sex workers that are 
trafficked or any discussions on how authorities could be more 
considerate of sex workers' troubles?
    Ms. Oldham-Moore. Mr. Heatley, who did you want that 
directed to?
    Mr. Heatley. Dr. Zheng.
    Ms. Zheng. Thank you. Someone can confirm, I don't think 
there has been any difference in policy from my original 
research, which was 1997. That's when I started my research.
    As I had mentioned in my talk, my recommendation would be 
to create an alliance or partnership between the sex worker 
organizations and government officials to identify those 
victims who are trafficked into the sex worker or sex trade. I 
think that's the most effective and efficacious way to access 
the expertise, because these communities really--they know 
every neophyte. They ask them questions.
    If people were forced into the sex trade and the sex 
workers who were voluntarily working there, they would 
definitely know ahead of time or before anybody else. So I 
think there is little understanding about these women's real 
lives by policymakers, by officials on top and social workers 
and so on.
    But I think that's not only a problem in China. I think in 
many countries around the world, there have been these issues 
of confusion or conflation between prostitution and 
trafficking, thinking of these women as victims rather than 
thinking of them as agents, and that's the basis for 
collaboration between the two organizations.
    Ms. Oldham-Moore. Thank you. Now that Senator Dorgan had to 
step out, my name is Charlotte Oldham-Moore, and I'm just going 
to ask a quick question of Mr. Keefe.
    As we have learned today, the problem with trafficking 
knows no cultural or geographic boundaries. We see it in many 
societies. We see trafficking in China, and certainly we see 
trafficking in the United States.
    Our government has made serious efforts to address human 
trafficking. We now have a Trafficking in Persons Office at the 
State Department. We have implementing legislation, the 
Trafficking Victims Protection Act of 2000, and follow-on 
legislation. We've also had funding, for service T-visas, 
funding for NGOs to help victims here. And now we have 
Ambassador Luis de Baca, who is a former Department of Justice 
prosecutor, heading that office in the State Department; this 
is significant work.
    But my hunch is that the United States could do a lot 
better than what we are doing now. Can you talk a little bit 
about what you've seen on the ground in New York City when you 
did your investigations, about the extent of implementation at 
the local level in the United States of U.S. antitrafficking 
laws. How we could do it better, just as we have talked about 
the Chinese doing their job better in terms of implementation 
at the local level?
    Mr. Keefe. Sure. I mean, it's a big issue and I would echo 
what you've said about promising trends in terms of the extent 
to which the United States is putting resources behind this, 
taking it seriously as an issue, coming up with mechanisms 
particularly to look after victims of trafficking.
    One thing I'll say about how it plays out at the local 
level is that I think that the--when these types of businesses 
arise, that is, illicit, kind of ethnic businesses, which are 
often contained within a particular ethnic neighborhood and 
often exploit the newly arrived in that neighborhood, they tend 
to catch law enforcement by surprise.
    The case of the Fujianese in New York, in particular, I'm 
certain you can generalize this, to some extent, with whatever 
particular nationality or ethnic group you had in mind. But in 
the case of the Fujianese, what happened was that in the late 
1980s, a series of gangs began to become much more prominent in 
New York and there was a lot of violence associated with that 
and the snakehead business was really getting up and going. So 
you had a lot of situations which were really the safe house 
situation I described earlier.
    You have a family which calls the police and says, ``My 
cousin is here. He's being held somewhere in Queens in a 
basement and they've said that they're going to cut his feet 
off if we don't pay up this amount of money in this amount of 
time.''
    Initially, the issue is that law enforcement didn't really 
understand where Fujian Province was. Chinatown had always 
been, in their minds, a predominantly Cantonese place. They 
didn't have any Fujianese speakers who spoke the northern 
Fujian dialect that most of these people did.
    They were actually literally pulling cadets out of the 
police academy, because they could get--it was amazing. When 
the FBI got involved, they would start getting Title 3 wiretaps 
and not have anyone to listen to the wiretap. So these people 
could have been speaking in code.
    It was also a matter of getting people to trust law 
enforcement. So one scenario that I heard again and again is 
that you have somebody who very reluctantly comes in and agrees 
to cooperate with law enforcement, testify before a grand jury 
and get an arrest. And what happens is that the person in 
question, this snakehead, the trafficker, the gangster gets 
arrested and then pays bail and gets out on bail and goes back 
into the neighborhood.
    And particularly coming from an environment in China in 
which corruption is occasionally an issue in the police force, 
to the immigrant who hasn't been here very long and doesn't 
fully understand this scenario and is terrified about revenge 
of some sort, this spectacle of basically going in, 
cooperating, having the bad guy arrested, and then having him 
pay money and get out to come back into the neighborhood was 
terrifying.
    There was just a big learning curve in terms of law 
enforcement getting to know the people in the neighborhood and 
in the community, learning the language and learning the 
culture, and then, also, the community sort of being educated 
about U.S. law enforcement and social services and community 
groups and who is there for you, who you can trust.
    It goes to a point that's already been made, but I think 
that this is a slow effort and a kind of multi-pronged effort 
and it takes a while and you need to avail yourself of all the 
available resources, but I think that's the only way in this 
country we're going to be able to deal with this problem, not 
just at the level of top level policymaking, but really down on 
the ground, in the streets, in the communities.
    Ms. Oldham-Moore. Great. Thank you so much.
    Please go ahead?
    Mr. Marshall. My name is Steve Marshall. I also work for 
the Commission. First, I'd like to say this has been enormously 
helpful in terms of trying to understand the problem, and it's 
obviously multi-layered, multiple dimensions in each layer, and 
it really is easy to conflate things and simplify them.
    So my question is, basically, in China, not in the United 
States or another country, but in China, where is the 
breakthrough point on this? We have a very strong economic 
issue in this. We have societal issues, we have governance 
issues, we have legal issues.
    But if we, over here, are watching what's happening in 
China and we want to understand which place is most important 
for change to take place--change that will have a ripple effect 
on how and whether this problem can keep continuing--what 
should we watch for? What should we try to encourage?
    This, obviously, is something that any of the panelists 
might have something to say about. Thank you.
    Ms. Oldham-Moore. Anybody want to take that? Yes, Dr. Wan 
Yanhai.
    Dr. Wan. I think there are many channels; government 
dialogue on policy dimensions is very important. And other 
issues, I think social processes and civil society are very 
important.
    There are many migrant worker organizations around China in 
many larger cities. So they might be very good to reach out in 
a population. So labor organizations can work with migrant 
worker organizations, especially managing ethnic minorities. So 
there are many migrant worker organizations, but not many 
ethnic migrant worker organizations.
    Recently, the Chinese Government, the ethnic committee, has 
passed some new policy to encourage social organization 
development from ethnic communities. I think it's time also to 
develop--to help develop migrant worker and ethnic minorities 
and women's organizations, especially among homogeneous 
populations. I think it's really important. Health 
organizations are also important.
    So that is my perspective.
    Ms. Oldham-Moore. So you think what observers should be 
focused on is civil society and whether it's able to robustly 
operate and do its job on the ground in assisting victims.
    Dr. Wan. Yes. For example, for our organization, we work 
with the broad community and the weaker ethnic migrant and drug 
user communities and sex worker communities, migrants. We can 
observe what's going on, but we also have a conflict in our 
laws, 
because we need to establish a good working relation with the 
network.
    So our general purpose is for health, not only human 
trafficking issues, but we can push policy change. So one day, 
maybe the environment will enable us to work on the trafficking 
issues.
    Ms. Oldham-Moore. Okay. I think we're almost near the close 
of this session. I want to thank everyone for being here. I 
hope you will visit the CECC's Web site at www.cecc.gov. We 
have daily updates and you can sign up for our mailing list.
    This has been an extraordinarily interesting panel. I want 
to thank Dr. Earl Brown, Dr. Tiantian Zheng, Dr. Wan Yanhai and 
Mr. Patrick Radden Keefe for coming today. It's been an 
outstanding panel and I appreciate your participation. Thank 
you.
    [Whereupon, at 11:29 a.m., the round table was concluded.]

                                 <all>

</pre></body></html>
